TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                 Additional Steps Are Needed to Prevent and
                 Recover Erroneous Claims for the First-Time
                              Homebuyer Credit



                                           June 17, 2010

                              Reference Number: 2010-41-069




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                       HIGHLIGHTS


ADDITIONAL STEPS ARE NEEDED TO                          WHAT TIGTA FOUND
PREVENT AND RECOVER ERRONEOUS
                                                        The IRS has taken a number of positive steps to
CLAIMS FOR THE FIRST-TIME                               strengthen controls and help prevent
HOMEBUYER CREDIT                                        inappropriate Credits from being issued.
                                                        Primary among these controls was the
                                                        implementation of filters to identify questionable
Highlights                                              claims for the Credit before they are processed.

Interim Report issued on June 17, 2010                  However, additional controls are necessary to
                                                        address erroneous claims for the Credit.
Highlights of Reference Number: 2010-41-069 to          Further, fraudulent and questionable claims
the Internal Revenue Service Commissioner for           processed prior to implementation of controls
the Wage and Investment Division.                       will need followup action by the IRS.

IMPACT ON TAXPAYERS                                     Control weaknesses allowed fraudulent claims
                                                        filed by prison inmates totaling an estimated
Homebuyers who purchased a home in 2008,                $9.1 million to be processed. Multiple claims for
2009, or 2010 may be able to take advantage of the      the same home were allowed. In addition,
First-Time Homebuyer Credit. The Credit may be          claims totaling an estimated $17.6 million were
an interest-free loan or a fully refundable Credit      allowed for homes purchased prior to the dates
depending on when the taxpayer purchased his or         allowed by the law.
her home.
                                                        Many questionable claims for the Credit made
Fraudulent and erroneous Credits totaling millions      on amended tax returns were not appropriately
of dollars in refunds were issued, which increases      sent to the IRS’ Examination function for
an already burgeoning Federal deficit.                  scrutiny.

WHY TIGTA DID THE AUDIT                                 Further, TIGTA found additional IRS employees
                                                        that had made questionable claims for the
The First-Time Homebuyer Credit as expressed in         Credit.
the Housing and Economic Recovery Act of 2008
has been revised and extended by two subsequent         WHAT TIGTA RECOMMENDED
bills. Taxpayers may be confused regarding which        TIGTA recommended that the IRS ensure that
version of the Credit they qualify for, and             steps are taken to reconcile Prisoner Files from
unscrupulous individuals may make fraudulent            year to year. The IRS should also ensure that
claims for the refundable Credit.                       erroneous Credits received by prisoners and by
The President of the United States has called on        taxpayers claiming homes that do not qualify for
Federal agencies to ensure that recovery funds are      the Credit (including those filed on amended
used for authorized purposes and that every step is     returns) are identified and recovered through
taken to prevent fraud, waste, error, and abuse.        post-refund examination activities.
The Internal Revenue Service (IRS) faces                IRS management agreed with all of the
significant challenges to ensure that the recovery      recommendations. Management plans to
funds it administers are used for authorized            continue to explore ways to enhance the
purposes. This report contains interim results of       accuracy and completeness of the Prisoner File
two audits. The overall objectives of these two         and plans to take steps to ensure that the claims
audits are to determine whether the IRS has             made by prisoners are given high priority and
controls in place that effectively identify erroneous   are subject to post-refund examinations. In
claims for the Credit and to determine whether the      addition, the IRS plans to provide additional
IRS has controls in place to ensure claims for the      compliance scrutiny to all other inappropriate
Credit claimed on amended income tax returns are        claims.
appropriately processed.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                June 17, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Interim Audit Report – Additional Steps Are Needed to Prevent and
                                 Recover Erroneous Claims for the First-Time Homebuyer Credit
                                 (Audit # 201040138)

 This report presents additional interim results of our review to determine whether the Internal
 Revenue Service (IRS) has controls in place that effectively identify erroneous claims for the
 First-Time Homebuyer Credit. This report also includes results of our review to determine
 whether the IRS has controls in place to ensure claims for the First-Time Homebuyer Credit
 claimed on amended income tax returns are appropriately processed. Our final reports will be
 issued in the fourth quarter of Calendar Year 2010 and will include updated results. The audits
 address the IRS major management challenges of Implementing Tax Law Changes and
 Erroneous and Improper Payments and Credits and present selected information related to the
 IRS implementation of Section 1006 of the American Recovery and Reinvestment Act of 2009
 (Recovery Act). 1
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of IRS programs.
 These audits are being conducted using Recovery Act funds.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.



 1
     Pub. L. No. 111-5, 123 Stat. 115.
                        Additional Steps Are Needed to Prevent and
                             Recover Erroneous Claims for the
                               First-Time Homebuyer Credit




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Some Fraudulent Claims for the Homebuyer Credit Filed
          by Prison Inmates Were Not Stopped...........................................................Page 4
                    Recommendations 1 and 2: ..............................................Page 7

          Multiple Claims Exceeding the Maximum Homebuyer Credit
          Were Paid for the Purchase of the Same Home............................................Page 8
                    Recommendation 3: .................................................................. Page 9

          Homebuyer Credits Were Allowed for Purchases Made Prior to
          the Dates Allowed by Law............................................................................Page 9
                    Recommendation 4:........................................................Page 11

          Many Questionable Claims for the First-Time Homebuyer Credit
          Made on Amended Tax Returns Were Not Appropriately Sent
          to the Examination Function for Scrutiny.....................................................Page 11
          Internal Revenue Service Employees Made Questionable Claims
          for the Homebuyer Credit .............................................................................Page 12

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 14
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Management’s Response to the Draft Report ......................Page 20
        Additional Steps Are Needed to Prevent and
             Recover Erroneous Claims for the
               First-Time Homebuyer Credit




                      Abbreviations

HERA            Housing and Economic Recovery Act of 2008
IRS             Internal Revenue Service
TIGTA           Treasury Inspector General for Tax Administration

WHBAA           Worker, Homeownership, and Business Assistance Act of 2009
                     Additional Steps Are Needed to Prevent and
                          Recover Erroneous Claims for the
                            First-Time Homebuyer Credit




                                             Background

Section 1006 of the American Recovery and Reinvestment Act of 2009 (Recovery Act) 1 revised
and extended the First-Time Homebuyer Credit (Homebuyer Credit) provided for in the Housing
and Economic Recovery Act of 2008 (HERA). 2
The HERA allowed taxpayers who purchased a principal
residence after April 8, 2008, and before July 1, 2009, to
claim a credit equal to 10 percent of the purchase price
of the home, limited to $7,500. The Homebuyer Credit,
as expressed in this Act, served as an interest-free loan
to be paid back over a 15-year period beginning two
years after the Credit was claimed.
Section 1006 of the Recovery Act extended the
Homebuyer Credit to include purchases made on or after
January 1, 2009, and before December 1, 2009,
increased the maximum Credit to $8,000, and eliminated
the repayment requirements as long as the taxpayer retains the residence for 36 months.
Taxpayers qualifying for the revised Homebuyer Credit may claim the $8,000 Credit on their
individual income tax returns for Tax Year 2008 or 2009. Taxpayers may be confused regarding
which version of the Credit they qualify for, and unscrupulous individuals may make fraudulent
claims for the refundable Credit.
The Worker, Homeownership, and Business Assistance Act of 2009 (WHBAA), 3 signed into law
on November 6, 2009, extended and expanded the Homebuyer Credit allowed by the previous
Acts. 4 The WHBAA also added documentation requirements for claiming the Credit. The
Treasury Inspector General for Tax Administration (TIGTA) reviewed the Internal Revenue
Service’s (IRS) implementation of the WHBAA as part of our annual audit of the IRS’ filing
season.




1
  Pub. L. No. 111-5, 123 Stat. 115.
2
  Pub. L. No. 110-289.
3
  Pub. L. No. 111-92, 123 Stat 2984 (2009).
4
  Under the new law, an eligible taxpayer must buy, or enter into a binding contract to buy, a principal residence on
or before April 30, 2010, and close on the home by June 30, 2010. The law maintained that the taxpayer would not
be required to repay the Credit and kept the maximum amount at $8,000. For qualifying purchases in 2010,
taxpayers have the option of claiming the Credit on either their 2009 or 2010 tax returns.
                                                                                                              Page 1
                    Additional Steps Are Needed to Prevent and
                         Recover Erroneous Claims for the
                           First-Time Homebuyer Credit



As discussed in our prior interim report, 5 the focus of this audit is the IRS’ efforts to identify
erroneous Homebuyer Credits claimed on original 2008 U.S. Individual Income Tax Returns
(Form 1040). However, this interim report also addresses issues we have identified in a separate
audit (Audit #201040140) regarding claims for the
Credit filed on Amended U.S. Individual Income Tax
Returns (Forms 1040X).                                               This interim audit report
                                                                        discusses additional controls
The President of the United States has stated that every               necessary to address erroneous
taxpayer dollar spent on the economic recovery must be                     claims for the Homebuyer
                                                                           Credit. It also discusses
subject to unprecedented levels of transparency and                      fraudulent and questionable
accountability. The President has called on Federal                    claims for the Credit processed
agencies to ensure that recovery funds are used for                    prior to implementation of these
authorized purposes and every step is taken to prevent                 controls that will need followup
instances of fraud, waste, error, and abuse.                                   action by the IRS.

Congress estimated that $13.6 billion would be paid to
taxpayers for the Homebuyer Credit in the HERA. The Joint Committee on Taxation estimated
that more than $4.3 billion more would be paid to first-time homebuyers in Fiscal Years 2009
and 2010 as a result of the Recovery Act. As of December 31, 2009, more than
1.2 million original tax returns claiming the Homebuyer Credit had been processed.
In a prior interim report, we discussed a number of key controls that were missing to prevent
individuals from erroneously claiming the Homebuyer Credit. The IRS has taken a number of
positive steps to strengthen controls and help prevent inappropriate Credits from being issued.
Primary among these controls was the implementation of filters to identify questionable claims
for the Homebuyer Credit before they are processed. These filters were implemented in
May 2009. Other steps taken by the IRS include the following:
    •   Require documentation to support the purchase of a house when a Credit is claimed.
    •   Enter data from First-Time Homebuyer Credit and Repayment of the Credit (Form 5405)
        into IRS computers.
    •   Implement additional age filters to identify returns filed by taxpayers under the age of 18
        claiming the Credit.
    •   Initiate actions to follow up with taxpayers who claimed and received Credits for homes
        to be purchased in the future.




5
 The Internal Revenue Service Faces Significant Challenges in Verifying Eligibility for the First-Time Homebuyer
Credit (Reference Number 2009-41-144, dated September 29, 2009).
                                                                                                          Page 2
                    Additional Steps Are Needed to Prevent and
                         Recover Erroneous Claims for the
                           First-Time Homebuyer Credit



    •   Initiate actions to recover Credits, when appropriate, from taxpayers who had indications
        of prior home ownership but received the Credit before the IRS implemented filters to
        identify questionable claims.
    •   Develop criteria to identify amended returns with claims for the Credit for review by the
        Examination function.
    •   Send notices to taxpayers who purchased homes in Calendar Year 2009 and claimed a
        Credit of $7,500, if those taxpayers have not amended their returns, to inform the
        taxpayers that they may be entitled to an additional refund.
    •   Revise instructions for Forms 1040 and 1040X and Your Federal Income Tax For
        Individuals (Publication 17) to include information to assist taxpayers in amending their
        returns if they did not claim the full amount of the Credit to which they were entitled.
This interim audit report discusses additional controls necessary to address erroneous claims for
the Homebuyer Credit. It also discusses fraudulent and questionable claims for the Credit
processed prior to implementation of these controls that will need followup action by the IRS.
The report covers audit work completed as of March 31, 2010. Additional audit work is ongoing
and will be reported in our final audit report. Our final report on this subject will be issued in the
fourth quarter of Calendar Year 2010 and will include updated results.
This review is being performed onsite at the IRS Ogden, Utah, Campus. 6 It includes a review of
individual income tax returns filed nationwide as well as analysis of data provided by the IRS
Wage and Investment Division Headquarters in Atlanta, Georgia; the Submission Processing
function offices in Lanham, Maryland, and Cincinnati, Ohio; and the Submission Processing
Sites in Fresno, California; Austin, Texas; and Ogden, Utah. We will provide more detailed
objectives and scope in our final report.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. Detailed information on our
audit objectives, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




6
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 3
                     Additional Steps Are Needed to Prevent and
                          Recover Erroneous Claims for the
                            First-Time Homebuyer Credit




                                      Results of Review

Some Fraudulent Claims for the Homebuyer Credit Filed by Prison
Inmates Were Not Stopped
Congress has held hearings urging the IRS to devote additional resources to improve its detection
of fraudulent refunds, particularly those claimed by prisoners. To improve the Federal
Government’s ability to identify prison fraud, the Inmate Tax Fraud Prevention Act of 2008 7 was
enacted which allows the Department of the Treasury
to disclose certain prisoner return information to the        We identified 4,608 prisoners
Federal Bureau of Prisons and for other purposes. It        listed on the IRS 2009 Prisoner
also requires the Secretary of the Treasury to annually        File who attempted to claim
submit to Congress and make publicly available a             the  Homebuyer Credit on their
report on the filing of false and fraudulent returns by           Tax Year 2008 returns.
individuals incarcerated in Federal and State prisons.
In our analysis of First-Time Homebuyer Credits, we checked to determine whether any
prisoners were improperly claiming the Credit. We identified 4,608 prisoners listed on the IRS
2009 Prisoner File 8 who attempted to claim the Homebuyer Credit on their Tax Year 2008
returns, despite the fact that they were in prison at the time their qualifying home was reportedly
purchased (951 of these claims were filed by paid preparers).
From the file of 4,608 prisoners claiming the Homebuyer Credit, we researched a judgmental
sample of those that we considered to be the most egregious. These included 715 prisoners
whose filing statuses were something other than joint (i.e., they were not filing with a spouse)
and who were serving life sentences during the period their home would had to have been
purchased (174 of these claims were filed by paid preparers). 9 We found 241 of these prisoners
received Homebuyer Credits totaling more than $1.7 million.




7
  Pub. L. No. 110-428, 122 Stat. 4839 (codified at 26 U.S.C. §§ 6103 and 7803 and 28 U.S.C. § 376 (2010)).
8
  In general, this file contains individuals incarcerated in September 2009 or prior.
9
  Forty-one of the 715 claims were incorrectly identified on IRS records as claims from prisoners and, in some cases,
the refunds were delayed. The Social Security Numbers listed for these prisoners were inaccurate and actually
belonged to other taxpayers that appear to have legitimate claims for the Homebuyer Credit.
                                                                                                            Page 4
                     Additional Steps Are Needed to Prevent and
                          Recover Erroneous Claims for the
                            First-Time Homebuyer Credit



A prior TIGTA report 10 identified that prison facilities located in Florida were among the top
prisons with fraudulent refund returns. In this review, we found that 61 percent of the prisoners
serving life sentences who received the Credit were incarcerated in Florida.
To obtain an understanding of the population overall, we analyzed a statistically valid sample of
306 of the 4,608 claims 11 and found that 86 resulted in
refunds that appeared to be fraudulent totaling more than
                                                                  We estimate that at least
$600,000. 12 For 72 (84 percent) of these 86 claims, we           1,295 prisoners received
found no indication of any IRS post-refund compliance          fraudulent Homebuyer Credits
activities to recover the refunds.                               from their 2008 tax returns
                                                                              totaling more than $9.1 million.
The IRS implemented filters in May 2009 to identify
questionable claims for the Credit. Among these was a
filter to check against the 2008 Prisoner File. 13 We found,
in general, that this filter was programmed properly to stop claims for the Credit made by
individuals who were identified on the Prisoner File. However, the Prisoner File used by the IRS
(2008 Prisoner File) was missing some prisoner records. Only 39 of the 86 individuals receiving
refunds from claims made from prison were shown as prisoners on the 2008 Prisoner File even
though the 2009 Prisoner File showed all 86 individuals as in prison in Calendar Year 2008. The
IRS did not stop 32 of these claims because they were processed prior to the implementation of
the IRS’ filters. Another three claims were processed after the filters were implemented, but
they were not scrutinized by the IRS.
The IRS updates its Prisoner File data just once each year. The information for this file is
provided by prisons on a voluntary basis. As detailed in a prior audit report, 14 the IRS receives
most of the data for the file in August and September. Prisoners incarcerated after the
information is compiled are not included in the controls established by the IRS to identify
fraudulent claims filed by prisoners in the succeeding filing season. For example, in this case,
prisoners incarcerated after September 2008 would not have been on the 2008 Prisoner File,
which was used in the IRS’ filters to identify fraudulent claims for the Credit filed in Calendar
Year 2009.


10
   The Internal Revenue Service Needs to Do More to Stop the Millions of Dollars in Fraudulent Refunds Paid to
Prisoners (Reference Number 2005-10-164, dated September 28, 2005).
11
   Thirty-six of the 306 claims were incorrectly identified on IRS records as claims from prisoners and, in some
cases, the refunds were delayed. The Social Security Numbers listed for these prisoners were inaccurate and
actually belonged to other taxpayers that appear to have legitimate claims for the Homebuyer Credit.
12
   We considered a refund to be fraudulent if the individual used a filing status other than married filing jointly and
was in prison at the time they would have purchased their home to qualify for the particular credit they claimed
(HERA or Recovery Act).
13
   In general, this file contains individuals incarcerated in September 2008 or prior.
14
   The Internal Revenue Service Needs to Do More to Stop the Millions of Dollars in Fraudulent Refunds Paid to
Prisoners (Reference Number 2005-10-164, dated September 28, 2005).
                                                                                                                Page 5
                    Additional Steps Are Needed to Prevent and
                         Recover Erroneous Claims for the
                           First-Time Homebuyer Credit



However, this was not the reason the IRS failed to stop most of the fraudulent refunds we
identified. None of the 86 individuals receiving refunds from claims made from prison were first
incarcerated after September 2008.
Figure 1 lists the incarceration dates of the 86 prisoners receiving refunds resulting from claims
made for the Homebuyer Credit from prison.
                   Figure 1: Incarceration Dates for Prisoners Receiving
                  Homebuyer Credits – From a Sample of 306 Homebuyer
                                Credit Claims of Prisoners

                                                              Number of Prisoners
                           Year Incarcerated                  Receiving the Credit
                                 2008 15                                  12
                                 2007                                     14
                                 2006                                      5
                                 2005                                      6
                                 2004                                      8
                                 2003                                      5
                                 2002                                      6
                                 2001                                      6
                             2000 and prior                               24
                                 Total                                    86 16
                    Source: Statistical sample of 306 individuals listed on the IRS
                    2009 Prisoner File.

The information from the IRS Prisoner File is inconsistent from year to year. We found that
74 of the 86 individuals receiving fraudulent claims were first incarcerated in 2007 or earlier.
Further, 38 of these 86 individuals were listed as prisoners on the IRS’ 2007 Prisoner File, but
were not listed on the 2008 Prisoner File, then reappeared on the 2009 Prisoner File. Overall, of
the 854,776 prisoners listed on the 2007 Prisoner File with incarceration dates extending beyond
December 31, 2008, we found 84,305 of these prisoners were omitted from the 2008 Prisoner
File. We selected a judgmental sample of 50 of these prisoners and researched them on prison
inmate web sites 17 to determine whether they were in prison during all of Calendar Year 2008.



15
   The latest incarceration date for these 86 prisoners was September 12, 2008.
16
   Sixty-nine of these 86 prisoners were also listed on the 2007 Prisoner File.
17
   Prison Search-http://www.ancestorhunt.com/prison_search.htm; and Federal Bureau of Prisons-
http://www.bop.gov/iloc2/LocateInmate.jsp.
                                                                                                 Page 6
                       Additional Steps Are Needed to Prevent and
                            Recover Erroneous Claims for the
                              First-Time Homebuyer Credit



We found that 47 of the 50 were incarcerated through the entire year, *********1***********
*******************1***************************.
We believe the IRS’ Prisoner Files are incomplete for two reasons. First, IRS officials told us
the prisons’ contributions to this file are voluntary and many prisons do not contribute data from
year to year. Second, the IRS does not resolve issues regarding individuals known to be
incarcerated in a given year (based on prior year information) but not included on the current
year’s Prisoner File. In other words, no action was taken to add a prisoner to the 2008 Prisoner
File when the prisoner was omitted from that file but the 2007 Prisoner File showed that prisoner
to be incarcerated in 2008 and beyond. Had the IRS appended its 2008 Prisoner File with
individuals whose names were not on the file, but were shown on the 2007 Prisoner File to be
incarcerated for all of 2008, it would have identified 38 (44 percent) of the 86 prisoners receiving
refunds from fraudulent claims in our sample. 18
Based on our statistical sample of 306 returns, we estimate that at least 1,295 prisoners received
refunds totaling more than $9.1 million for fraudulent Homebuyer Credits claimed on their
2008 tax returns.

Recommendations
Recommendation 1: The Director, Refund Crimes, Criminal Investigation Division, should
ensure that steps are taken to reconcile Prisoner Files from year to year to account for individuals
known to be incarcerated in a given year (based on prior year information) but not included on
the current year’s Prisoner File.
           Management’s Response: IRS management agreed to continue to explore further
           enhancements to the accuracy and completeness of the Prisoner File. However, the
           responsibility for the Prisoner File has been transitioned to the Wage and Investment
           Division.
           Office of Audit Comment: While we agree that the IRS needs to continue to explore
           further enhancements that will improve the accuracy and completeness of the Prisoner
           File, the reconciliation of the Prisoner Files from year to year should be an essential part
           of that directive.
Recommendation 2: The Director, Reporting Compliance, Wage and Investment Division,
should ensure that steps are taken to recover fraudulent Homebuyer Credits refunded to
prisoners.
           Management’s Response: IRS management agreed with this recommendation. The
           Director, Reporting Compliance, Wage and Investment Division, will work with the


18
     This assumes the IRS’ filters would have been in place the entire processing year.
                                                                                                 Page 7
                     Additional Steps Are Needed to Prevent and
                          Recover Erroneous Claims for the
                            First-Time Homebuyer Credit



         Director, Campus Reporting Compliance, Small Business and Self-Employed Division,
         and the Director, Research, Wage and Investment Division, to ensure that prisoners
         identified by the TIGTA as having received refunds due to inappropriate claims for the
         Homebuyer Credit will be subject to post-refund examination during Fiscal Years 2011
         and 2012. These cases will be given high priority and may be referred for criminal
         investigation.

Multiple Claims Exceeding the Maximum Homebuyer Credit Were Paid
for the Purchase of the Same Home
We identified a large number of taxpayers who
claimed the Homebuyer Credit using an address for            We found instances in which
which other taxpayers also claimed the Credit. We            large numbers of taxpayers
determined 18,832 taxpayers filed claims for the            used   the address of one home
                                                           to claim the Homebuyer Credit.
Homebuyer Credit using a total of only
                                                          We found as many 67 taxpayers
7,695 addresses. In order to be included in our             using the same home to claim
population, the street addresses (including unit                        the Credit.
numbers if included) and the zip codes had to match
exactly. In each instance, more than $8,000 was being
claimed for one address. The amount of these 18,832 claims totaled more than $134 million
(5,331 of the 18,832 claims were filed by 1,941 paid preparers). 19 We analyzed a statistically
valid sample of 377 of these claims and found 206 claims totaling more than $1.4 million were
refunded to the taxpayer with no IRS scrutiny. 20
Of the 7,695 addresses used to claim the Homebuyer Credit, we identified the five addresses
used most often and researched the 256 taxpayers listing those addresses on their returns. 21 None
of the 256 claims have indications of being filed by a paid preparer. We identified 148 instances
(58 percent) totaling almost $1.2 million in which the Credit was allowed without any IRS
scrutiny. Figure 2 contains a breakdown of what happened to the 256 claims during or after IRS
processing. Even though the IRS examined some of the claims that appeared to be erroneous



19
   We found 6,414 addresses used by 16,247 taxpayers where the combined claims totaled $13,000 or more.
20
   We also found six claims underwent some IRS review prior to refunding but it does not appear the issue of
multiple claims for the same home was addressed; 55 claims were initially refunded to the taxpayer but have
indications of post-refund audits or other IRS scrutiny (most of these reviews appear related to the Homebuyer
Credit but unrelated to the issue of multiple claims from the same address); 75 claims are undergoing pre-refund
examinations (it appears most of these claims were selected for examination because they were caught by the IRS’
filters to identify other questionable issues related to the Homebuyer Credit); and 35 claims were disallowed before
refunding.
21
   We performed research using Google Earth, Accurint, and realtor.com to ensure these claims were not from
taxpayers purchasing condominiums or apartments but omitting their unit numbers.
                                                                                                             Page 8
                  Additional Steps Are Needed to Prevent and
                       Recover Erroneous Claims for the
                         First-Time Homebuyer Credit



based on other criteria, it does not appear that the address was reviewed to find other potentially
noncompliant claims originating from the same residence.
***********************************************1***************************************************
****************************************************************************************************
****************************************************************************************************
****************************************************************************************************
****************************************************************************************************
****************************************************************************************************
****************************************************************************************************
****************************************************************************************************
****************************************************************************************************
****************************************************************************************************
****************************************************************************************************
****************************************************************************************************
****************************************************************************************************
****************************************************************************************************
****************************************************************************************************

Recommendation
Recommendation 3: The Director, Reporting Compliance, Wage and Investment Division,
should perform a computer run similar to the TIGTA’s to identify multiple taxpayers claiming
the same home for the Homebuyer Credit and perform post-refund examinations to ensure
refunds for the invalid claims are recovered. The TIGTA has the listing of taxpayers described
above and will make it available to IRS functions upon request.
       Management’s Response: IRS management agreed with this recommendation and
       has identified this issue as an important element of the overall Examination plan. The
       IRS will include these returns in the pool of potential post-refund audit work and will
       select cases for examination from this pool in accordance with its overall post-refund
       Compliance plan.
Homebuyer Credits Were Allowed for Purchases Made Prior to the
Dates Allowed by Law
We found claims for the Homebuyer Credit that the IRS processed and refunded even though the
date of the reported purchase was prior to the effective date of the legislation. As mentioned
earlier, the HERA established a new tax credit for first-time homebuyers that was made effective
for homes purchased after April 8, 2008, and before July 1, 2009. Subsequent legislation



                                                                                             Page 9
                       Additional Steps Are Needed to Prevent and
                            Recover Erroneous Claims for the
                              First-Time Homebuyer Credit



modified Homebuyer Credit regulations and extended the Credit to homes purchased, in general,
before May 1, 2010.
To claim the Credit, eligible taxpayers must complete              We estimate that
and file Form 5405. The IRS developed this new form        2,555 taxpayers inappropriately
for eligible taxpayers to calculate and claim the            received Homebuyer Credits
Homebuyer Credit. This form requires the taxpayer to         based on homes purchased
                                                           prior to the dates allowed for in
provide the amount of Credit being claimed, the
                                                                        the law.
address of the home qualifying for the Credit, and the
date the home was purchased. The General
Instructions provided with the Form clearly indicate
that taxpayers must purchase the home after April 8, 2008, to qualify for the Credit.
We identified 2,751 claims filed on Tax Year 2008 electronic tax returns totaling almost
$18.8 million that were based on homes reportedly purchased prior to April 9, 2008. The
acquisition dates for most of the homes were early in 2008; however, 748 claims (27 percent)
included acquisition dates in 2007 or prior. Figure 3 lists the purchase dates of these homes.
                    Figure 3: Purchase Dates of 2,751 Homes Inappropriately
                               Used to Claim Homebuyer Credits

                          Year of Acquisition                   Number of Claims
                                   2008 22                               2,003
                                   2007                                    501
                                   2006                                    107
                                   2005                                     52
                                   2004                                     40
                                   2003                                     15
                                   2002                                     10
                                   2001                                     11
                                   2000                                     12
                                   Total                                 2,751
                    Source: IRS’ Individual Master File 23 data.

From the 2,751 claims, we reviewed a statistically valid sample of 338 claims and found the
following:



22
     These homes were purchased in 2008, but prior to April 9.
23
     The IRS database that maintains transactions or records of individual tax accounts.
                                                                                           Page 10
                 Additional Steps Are Needed to Prevent and
                      Recover Erroneous Claims for the
                        First-Time Homebuyer Credit



   •   314 claims (93 percent) totaling almost $2.2 million were refunded to taxpayers without
       receiving either pre-refund or post-refund scrutiny.
   •   17 claims (5 percent) were initially refunded to taxpayers but had indications of a
       post-refund exam or other IRS scrutiny ongoing as of March 30, 2010 (eight of these
       reviews appear to be related to the Homebuyer Credit).
   •   Six claims (2 percent) were initially refunded but the taxpayer voluntarily repaid the
       Credit in a subsequent amended return. No exam indicators exist for these claims.
   • ***********************************1*******************************
       ***************************************************************.
All 2,751 claims were processed prior to July 2009. For Tax Year 2009 returns processed in
2010, the IRS has initiated controls to identify and disallow such claims prior to them being
refunded. However based on our sample, we estimate that for Tax Year 2008, approximately
2,555 taxpayers filing electronic returns inappropriately received Homebuyer Credits totaling
$17.6 million based on homes purchased prior to dates allowed by the law.

Recommendation
Recommendation 4: The Director, Reporting Compliance, Wage and Investment Division,
should identify those claims for homes purchased prior to the effective date of the legislation and
initiate post-refund examinations (including the use of soft notices) to ensure refunds for the
invalid claims are recovered. The TIGTA has the list of taxpayers described above and will
make it available to IRS functions upon request.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Research, Wage and Investment Division, will conduct additional analyses of
       Homebuyer Credit claims to identify home purchase dates before the appropriate
       enactment dates. The Director, Accounts Management, Wage and Investment Division,
       will send letters to the impacted taxpayers. Depending upon the responses from
       taxpayers, the Credits will be reversed, or the accounts will be adjusted to reflect the
       correct information supplied by the taxpayers.

Many Questionable Claims for the First-Time Homebuyer Credit Made
on Amended Tax Returns Were Not Appropriately Sent to the
Examination Function for Scrutiny
In a separate audit (Audit #201040140), we analyzed claims for the Homebuyer Credit made on
amended returns to determine whether controls were in place to ensure questionable claims were
receiving appropriate scrutiny from the IRS’ Examination function. For qualifying homes

                                                                                           Page 11
                 Additional Steps Are Needed to Prevent and
                      Recover Erroneous Claims for the
                        First-Time Homebuyer Credit



purchased in 2008 or 2009, the Homebuyer Credit could be claimed on an original filed Tax
Year 2008 or 2009 return or by amending the 2008 tax return using Form 1040X. Amending the
2008 tax return allows taxpayers to claim the Homebuyer Credit for a home purchased in 2009
without waiting to claim it on their 2009 return.
The IRS developed specific criteria to identify questionable claims for Homebuyer Credits on
amended returns and implemented controls to apply these criteria during processing of the
amended returns. The IRS reported that the controls were implemented on June 10, 2009. The
controls were designed, in part, to identify taxpayers that had indications of home ownership
within the last three years and route these returns to the Examination function for further
scrutiny.
We determined that not all amended claims for the Homebuyer Credit are receiving appropriate
scrutiny even though they meet IRS examination criteria. We selected a statistically valid
sample of 379 Forms 1040X (206 processed before the IRS’ criteria were implemented, and
173 processed after the criteria were implemented). Of the 173 amended returns processed after
the implementation of the criteria, we found 50 with indications of prior home ownership within
the last three years (which should have met the criteria for further scrutiny). However, 25
(50 percent) of these 50 were not identified as questionable and/or not referred to the
Examination function. The average claim for the Homebuyer Credit on these 25 returns was
$7,126.
Based on our sample, we estimate that a total of 1,713 amended returns processed after
June 10, 2009, met examination criteria but were not appropriately evaluated by the Examination
function. We are working with the IRS to determine why these cases were missed and to
develop appropriate recommendations.
We also reviewed the 206 amended returns processed prior to the implementation of the criteria
and found that none of the 64 cases that would have met Examination criteria, based on prior
home ownership, had been examined. The average claim totaled $7,225. Based on our sample,
we estimate that an additional 4,385 amended claims received by the IRS prior to the
implementation of the criteria had indications of prior home ownership but were never examined.
The IRS agreed to include all of the claims with indications of prior home ownership processed
before implementation of its criteria in its post-refund examination program.

Internal Revenue Service Employees Made Questionable Claims for
the Homebuyer Credit
To qualify as a first-time homebuyer, a taxpayer (or a taxpayer’s spouse) may not have
previously owned a principal residence for three years prior to the purchase date of the home for
which the Homebuyer Credit is claimed.


                                                                                          Page 12
                 Additional Steps Are Needed to Prevent and
                      Recover Erroneous Claims for the
                        First-Time Homebuyer Credit



We developed computer programs to identify IRS employees claiming this Credit who
potentially do not qualify as first-time homebuyers. Our determination was based on whether the
employees had entered information on their individual income tax returns for one of the prior
three years indicating that they may have owned a home. These entries included deductions for
home mortgage interest, real estate taxes, deductible points, and qualified mortgage insurance
premiums. We also considered whether they had claimed a portion of the Residential Energy
Credit. In August 2009, we referred to the TIGTA Office of Investigations 53 IRS employees
who claimed the Credit despite indications that they owned a home within the last three years.
While the entries we focused on do indicate home ownership, the homes involved may or may
not have been the employee’s principle residence, so the deductions do not automatically
disqualify these employees from receiving the Credit. The Office of Investigations continues to
investigate these cases.
We have identified another 34 IRS employees that claimed the Homebuyer Credit despite
indications that they owned a home within the past three years. We referred them to the TIGTA
Office of Investigations in February 2010.
Provisions for the Homebuyer Credit were included in the HERA, the Recovery Act, and most
recently, the WHBAA. The cases detailed in this referral include those claims made only under
the first two Acts. However, because the WHBAA extends the eligibility period for the Credit
into 2010, there may be additional cases.




                                                                                       Page 13
                    Additional Steps Are Needed to Prevent and
                         Recover Erroneous Claims for the
                           First-Time Homebuyer Credit



                                                                                                  Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of the audits addressed in this interim report are to determine whether the
IRS has controls in place that effectively identify erroneous claims for the Homebuyer Credit and
to determine whether the IRS has controls in place to ensure claims for the Homebuyer Credit
claimed on amended income tax returns are appropriately processed. To accomplish our
objectives, we:
I.      Identified prisoners who have made claims for the Homebuyer Credit and determined
        whether they received the refund and determined whether they received appropriate
        scrutiny from the IRS.
        A. Developed computer programs to match prisoners listed on the IRS’ 2009 Prisoner
           File with taxpayers on the Data Center Warehouse 1 claiming the Homebuyer Credit
           that met our criteria (incarcerated before April 9, 2008, and released after
           January 1, 2010. We also included prisoners if they claimed more than $7,500 and
           began their incarceration between April 8, 2008, and January 1, 2009).
        B. From the population of 4,608 prisoners identified in Step I. A. claiming the Credit,
           evaluated a statistical sample 2 of 306 to determine if any of the claims were refunded
           or had received scrutiny from either the IRS’ Examination function or Criminal
           Investigation Division. We assessed the reliability of the data by comparing
           30 records with the Federal Bureau of Prisons web site and the Prison Inmate Search
           web site.
        C. Researched a judgmental sample 3 of 715 prisoners that we considered to be the most
           egregious and determined whether the claims were refunded and whether they had
           received scrutiny from either the Examination function or Criminal Investigation
           Division.



1
  A collection of IRS databases containing various types of taxpayer account information that is maintained by the
TIGTA for the purpose of analyzing data for ongoing audits.
2
  The statistical sample size was selected by using a five percent precision, 30 percent expected error rate, and a
95 percent confidence level.
3
  We selected the 715 cases using a nonstatistical sample including all prisoners whose filing status was something
other than joint and who were serving life sentences during the period their home would had to have been
purchased. We used a judgmental sample because we did not intend to project the results of this sample to the entire
population.
                                                                                                          Page 14
                    Additional Steps Are Needed to Prevent and
                         Recover Erroneous Claims for the
                           First-Time Homebuyer Credit



        D. Identified preparers who appear to be routinely filing returns for prisoners claiming
           the Homebuyer Credit.
        E. Determined if prisoners receiving the Homebuyer Credit appeared on the IRS’
           2007 Prisoner File and/or the IRS’ 2008 Prisoner File.
II.     Identified and reviewed claims originating from the same address for more than the
        maximum amount allowed.
        A. Combined information from the Data Center Warehouse and files received from
           TIGTA Information Services employees to identify 18,832 taxpayers who claimed
           the Homebuyer Credit on the same address where the total amount of the claim was
           more than $8,000 per address. We identified valid taxpayers filing electronically who
           claimed the Credit on their original 2008 tax return during the 2009 Processing Year
           as of December 31, 2009.
        B. Validated and assessed the reliability and completeness of the computer data by
           comparing 30 records to IRS Master File 4 data.
        C. Selected and reviewed a statistically valid sample 5 of 377 claims to determine
           whether the claims had received scrutiny from either the IRS’ Criminal Investigation
           Division or Examination function.
        D. Selected and reviewed an additional judgmental sample 6 of 256 claims to determine
           whether the claims had received scrutiny from either the IRS’ Criminal Investigation
           Division or Examination function.
        E. Added information from the Data Center Warehouse preparer files to the
           18,832 taxpayer records to determine if preparers appeared to be filing claims for the
           same address.
        F. Conducted research through third-party sources to verify the top five addresses were
           not multi-family dwellings or apartment complexes that may have been legitimately
           claimed by multiple taxpayers.
III.    Identified and reviewed claims with acquisition dates prior to the effective date of the
        HERA. 7


4
  The IRS database that maintains transactions or records of individual tax accounts.
5
  The statistical sample size was selected by using a 95 percent confidence level, a five percent precision, and a
50 percent expected error rate.
6
  We selected a nonstatistical sample by identifying the top five addresses most used and researched all the
taxpayers listing those addresses as their home. We used a judgmental sample because we did not intend to project
the results of this sample to the entire population.
7
  Pub. L. No. 110-289.
                                                                                                          Page 15
                     Additional Steps Are Needed to Prevent and
                          Recover Erroneous Claims for the
                            First-Time Homebuyer Credit



         A. Computer identified 2,751 claims from the IRS’ Individual Return Transaction File 8
            with an acquisition date prior to April 9, 2008, the effective date of the HERA
            legislation. We identified original electronic 2008 Forms 1040 processed during the
            2009 Processing Year.
         B. Assessed the validity and completeness of the computer data by comparing 35 records
            to IRS Master File information and third-party sources.
         C. Selected and reviewed a statistically valid sample 9 of 338 of the 2,751 claims to
            determine whether they received scrutiny from either the IRS’ Criminal Investigation
            Division or Examination function.
IV.      Identified and evaluated controls over amended returns for identifying, stopping, and
         correcting erroneous claims of the Homebuyer Credit.
         A. Reviewed documented procedures (e.g., Internal Revenue Manual, desk procedures)
            to identify CAT-A criteria 10 used by the IRS’ “1040X” unit when processing
            amended returns.
         B. Worked with TIGTA Information Services programmers to develop a computer
            program to identify taxpayers with returns on the Individual Return Transaction File
            indicating prior home ownership and claiming the Homebuyer Credit on their
            2008 tax return during the 2009 Processing Year. The records were obtained from
            the IRS Master File. We validated the data received by comparing 30 records to IRS
            Master File data.
         C. From a population of 25,970 claims, selected and reviewed a statistically valid
            sample 11 of 379 claims for indications that the return was identified for meeting
            CAT-A criteria and was forwarded to the Examination function for further scrutiny.
V.       Identified and reviewed 34 additional IRS employees that had indications of prior home
         ownership and claimed the Homebuyer Credit on their 2008 tax return. Our first interim
         report focused on IRS employees who were the primary taxpayers on the original tax
         return. In this interim report, we focused on IRS employees filing as secondary taxpayers
         on original returns and both primary and secondary filers on amended returns.



8
  The IRS computer file containing individual tax return data.
9
  The statistical sample size was selected by using a 95 percent confidence level, a five percent precision, and a
50 percent expected error rate.
10
   CAT-A criteria identifies issues that require a referral to the Examination function classifiers prior to allowing a
taxpayer’s claim.
11
   The statistical sample size was selected by using a 95 percent confidence level, a five percent precision, and a
50 percent expected error rate.
                                                                                                               Page 16
                 Additional Steps Are Needed to Prevent and
                      Recover Erroneous Claims for the
                        First-Time Homebuyer Credit



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’ policies, procedures, and
practices related to the identification of erroneous claims for the First-Time Homebuyer Credit
filed on both original and amended returns.




                                                                                         Page 17
                Additional Steps Are Needed to Prevent and
                     Recover Erroneous Claims for the
                       First-Time Homebuyer Credit



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
Bill R. Russell, Audit Manager
L. Jeff Anderson, Lead Auditor
Laura Paulsen, Lead Auditor
Kyle D. Bambrough, Senior Auditor
John B. Mansfield, Senior Auditor
Roy E. Thompson, Senior Auditor
Levi J. Dickson, Auditor
Nathan J. Smith, Auditor
Robert J. Carpenter, Information Technology Specialist
Michele S. Cove, Information Technology Specialist
Arlene Feskanich, Information Technology Specialist
Martha A. Stewart, Information Technology Specialist




                                                                                    Page 18
                Additional Steps Are Needed to Prevent and
                     Recover Erroneous Claims for the
                       First-Time Homebuyer Credit



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief, Criminal Investigation Division SE:CI
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Refund Crimes, Criminal Investigation Division SE:CI:RC
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Program Manager, Policy and Strategic Planning, Communications, Liaison, and Disclosure,
   Small Business/Self-Employed Division SE:S:CLD:PSP
   Chief, Program Evaluation and Improvement, Wage and Investment Division
   SE:W:S:PRA:PEI




                                                                                    Page 19
    Additional Steps Are Needed to Prevent and
         Recover Erroneous Claims for the
           First-Time Homebuyer Credit



                                                 Appendix IV

Management’s Response to the Draft Report




                                                      Page 20
Additional Steps Are Needed to Prevent and
     Recover Erroneous Claims for the
       First-Time Homebuyer Credit




                                             Page 21
Additional Steps Are Needed to Prevent and
     Recover Erroneous Claims for the
       First-Time Homebuyer Credit




                                             Page 22
Additional Steps Are Needed to Prevent and
     Recover Erroneous Claims for the
       First-Time Homebuyer Credit




                                             Page 23
Additional Steps Are Needed to Prevent and
     Recover Erroneous Claims for the
       First-Time Homebuyer Credit




                                             Page 24
Additional Steps Are Needed to Prevent and
     Recover Erroneous Claims for the
       First-Time Homebuyer Credit




                                             Page 25
